No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DEPARTMENT OF HOMELAND SECURITY, ET AL., PETITIONERS
v.
VIJAYAKUMAR THURAISSIGIAM
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR WRIT OF CERTIORARI, via email and first-class mail, postage
prepaid, this 2nd day of August, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8059 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on August 2, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 2, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST
Lee P. Gelernt
ACLU-American Civil Liberties Union Foundation
125 Broad Street, 18th Floor
New York, NY 10004
lgelernt@aclu.org
212-549-2660
John David Loy
ACLU Foundation of San Diego and Imperial Counties
P.O. Box 87131
San Diego, CA 92138-7131
619-232-2121
Jennifer C. Newell
Cody Wofsy
American Civil Liberties Union Foundation Immigrants' Rights Project
39 Drumm Street
San Francisco, CA 94111
415-343-0781
jnewell@aclu.org

